INVESTIGATIVE MEMORANDUM ON
MANAGEMENT ISSUES (PI05-26)

                                                                   October 31, 2005

To:    Giovanni Prezioso
       Jeffrey Risinger
       James McConnell

From: Walter Stachnik

Re:    Legal Review of Settlement Agreements (PI05-26)

During a preliminary inquiry recently conducted by our Office, we learned of a
settlement agreement entered into to resolve an administrative grievance. The settlement
agreement was signed by the grievant and the grievant’s supervisor. The grievance
concerned an unacceptable rating of the grievant by the supervisor. The Office of
General Counsel (OGC) did not review the proposed settlement agreement.

OHR and OGC staff indicated that normally an OGC attorney is assigned to settlement
negotiations and to review a proposed settlement agreement. In this case, an e-mail
notification from OHR to OGC regarding the grievance was apparently overlooked
through inadvertence. Subsequently, OHR entered into the settlement agreement without
having it reviewed by OGC.

We believe that OHR and OGC should develop policies and procedures regarding the
role of OGC in settlement negotiations and the review of settlement agreements. OGC
involvement is necessary to ensure that all legal issues are considered and addressed
before the agency is bound by an agreement.

OHR noted that an OHR employment attorney in the Employee Labor Relations Branch
drafted the settlement document following the e-mail request to OGC. OHR further
noted that besides the OHR attorney’s supervisor, two additional levels of managerial
review occurred (including the Commission’s Executive Director) before the supervisor
was authorized to sign the document.

OHR indicated that the OHR legal review and additional managerial review on the
settlement seemed sufficient at the time. The administrative grievance process under
which the settlement was reached does not allow for a third party appeal and the
settlement did not result in financial obligations for the agency. Nevertheless, OHR
concurs with our recommendation.
OGC concurs with our revised findings and recommendation.


      Recommendation A

      OHR and OGC should develop policies and procedures regarding OGC’s role in
      settlement negotiations and the review of proposed settlement agreements.

cc:   Darlene Pryor
      Richard Humes
      Adam Ramsey
      Peter Uhlmann




                                                                                   2
